                                                                                         Department of Energy
                                                                                       Office of Inspector General




       Inspection Report on "Allegations of Retaliation at a Department Site"
                                   INS-L-10-03
                                 August 12, 2010

This is a summary of Inspection Letter Report INS-L-10-03, entitled “Allegations of Retaliation at a
Department of Energy Site, issued on August 10, 2010.” The complete report is not available for public
disclosure. Public release is controlled pursuant to the Freedom of Information Act.


The Office of Inspector General (OIG) received an allegation by an individual who claimed that he was
retaliated against by his management as a result of his cooperation with the OIG. The specific matter
related to concerns regarding Nuclear Quality Assurance at one of the National Nuclear Security
Administration's laboratories. We initiated an inspection to look into this matter.

After a thorough review of the facts, including a review of e-mails, conducting a significant number of
personal interviews, administering signed/sworn statements, and making efforts to locate additional
documents, we could not substantiate the allegation of retaliation.
